BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Reply Brief in 20-544, Alaska Native Village
Corporation Association, Inc., et al. Steven T. Mnuchin,
in his official capacity as Secretary of U.S. Department
of Treasury v. Confederated Tribes of the Chehalis
Reservation, et al., was sent via Next Day Service to the
U.S. Supreme Court, and via e-mail service to the
following parties listed below, this 23rd day of
December, 2020:
Riyaz A. Kanji
Kanji & Katzen, PLLC
303 Detroit Street
Suite 400
Ann Arbor, MI 48104
(734) 769-5400
rkanji@kanjikatzen.com
Nicole E. Ducheneaux
Big Fire Law & Policy Group, LLP
1404 Fort Crook Road South
Bellevue, NE 68005
(406) 493-4693
nd uchenea ux@bigfi.re law .com
Jeffrey Rasmussen
Patterson Earnhart Real Bird & Wilson LLP
357 S. McCaslin Boulevard
Suite 200
Louisville, CO 80027
(303) 926-5292
jrasmussen@nativelawgroup.com
Counsel for Respondents

I
I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
' Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Jeffrey Wall
Acting Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for United States

Paul D. Clement
Counsel of Record
Erin E. Murphy
Ragan N are sh
Matthew D. Rowen
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on December 23, 2020.

Donna J. Wolf
rt'>
Becker Gallagft r Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~ fu,{_ <f) , ~dO

cbiutJ,

Notary Public
[seal]

~~

